TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Installment Agreement User Fees Were Not
                     Properly Calculated or Always Collected



                                               May 13, 2008

                                Reference Number: 2008-40-113




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Taxpayer Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 13, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Installment Agreement User Fees Were Not
                             Properly Calculated or Always Collected (Audit # 200640006)

 This report presents the results of our review to evaluate controls over establishing the amount of
 installment agreement user fees, recognizing installment agreement user fee revenue, accounting
 for installment agreement user fees, and correcting duplicate user fee payments. This audit was
 conducted as part of our Fiscal Year (FY) 2006 Annual Audit Plan.

 Impact on the Taxpayer
 Each year, the Internal Revenue Service (IRS) initiates approximately 1.5 million installment
 agreements with taxpayers that allow them to pay delinquent Federal tax in installment
 payments. The IRS charges a user fee for setting up these agreements. Our review of the IRS
 cost estimates for determining the amount of the installment agreement user fees indicates that
 the user fees charged taxpayers were set incorrectly. Furthermore, user fees were sometimes
 waived without justification, and some taxpayers were charged duplicate fees.

 Synopsis
 When taxpayers do not have the funds necessary to fully pay their taxes, the IRS may allow
 taxpayers to make installment payments over a period of time. The resulting installment
 agreement is considered a special service and taxpayers are charged a fee to offset the IRS’
 cost of providing that service. In FY 2006, after years of charging the same amounts for
 installment agreement user fees, the IRS submitted and the Office of Management and Budget
 approved a fee increase from $43 to $105 for new agreements and from $24 to $45 for
                       Installment Agreement User Fees Were Not Properly
                                 Calculated or Always Collected



reinstated/restructured agreements. The Office of Management and Budget also approved a
reduced $52 user fee for taxpayers who entered into installment agreements by direct debit
payment method and a user fee of $43 for low-income taxpayers. In January 2007, the IRS
implemented the approved user fee increases.
The IRS cost estimates supporting user fee adjustments should be based on the best available
records and represent the full cost of providing the service. Reviews are required to be
conducted every 2 years to keep the cost estimates current, which allows the IRS to recover the
actual cost of providing an installment agreement. However, we found that the IRS did not
routinely perform the required reviews every 2 years, and that new installment agreement user
fees were based on inaccurate cost estimate assumptions and contained calculation errors and
unsupported costs. This resulted in a higher user fee estimate than was justified by the
supporting documentation. Based on our recalculations, the IRS is potentially overcharging
taxpayers $16.85 for initiating an installment agreement and $7.77 for restructuring/reinstating
an installment agreement. Since the new rate increase went into effect in January 2007, we
estimate that the IRS has collected excess amounts for user fees that could total $10.3 million for
initial installment agreements and $2.5 million for restructured/reinstated installment
agreements.
IRS examiners were also improperly waiving user fees and failing to adequately document the
reasons behind the waivers. The amount of uncollected installment agreement user fees could be
$629,021 as a result of improperly waiving the user fees for initiating an installment agreement,
and another $457,982 in waived restructured/reinstated installment agreement user fees were
questionable due to the lack of documentation. Duplicate user fees were also being charged with
15 percent of those duplicate user fees going uncorrected, which could have resulted in
435 taxpayers being overcharged user fees totaling $18,705 in the second quarter of FY 2006.
Because of the problems identified with its FY 2004 cost estimate and subsequent to our
analysis, the IRS examined its approach for setting installment agreement cost estimates and
claims significant revisions were made to the methodology. However, the new methodology is
still currently under review by IRS management. In its new methodology, the IRS has added and
changed cost factors it believes should be incorporated into the fee rate. Consequently, IRS
management believes that its current fees are not overstated. The data supporting this new
methodology were not available at the time of our review. Because of the problems we
identified with its previous methodology, we believe that IRS management should thoroughly
review the new methodology and supporting data for compliance with Office of Management
and Budget requirements for setting user fees before using the methodology as the basis for any
decisions.




                                                                                                  2
                       Installment Agreement User Fees Were Not Properly
                                 Calculated or Always Collected




Recommendations
We recommended that the Chief Financial Officer ensure that the methodology used to support
installment agreement user fee rates is properly revised and that the best data available are used
to justify the rate increases. The new methodology and the cost estimating process should be
adequately supported and designed to be fair and equitable to the affected taxpayers.
We also recommended that the Commissioner, Wage and Investment Division, establish a
system control to ensure that fees for initiating an installment agreement are not waived. An
additional review process should be implemented to ensure that the justification for waiving
restructured/reinstated installment agreements is appropriately documented on the taxpayer’s
account. To ensure collection of the user fee, the process for processing installment agreement
tax payments without a coupon should be revised to first deduct the installment agreement user
fee from the payment before applying the balance of the payment to taxes due. The information
provided to examiners on duplicate payments should also be expanded to include information on
the number of duplicates that exist. This would allow the examiners to prioritize for correction
those accounts showing more than one duplicate. Managers should also be reminded of the
importance of requiring examiners to make direct taxpayer contact when it becomes evident that
the taxpayer might be repeatedly submitting the initial payment coupon, causing duplicate
postings of the user fee. A modification to the coupon and programming should be considered to
ensure that the fee is charged on the first payment and to eliminate the possibility of double
charging the fee. Also, there should be a control/report developed to ensure that once examiners
identify duplicate user fees, these duplicates are reversed.

Response
IRS management agreed with five of our recommendations and partially agreed with one
recommendation. In response, management will:
•   Publish Internal Revenue Manual guidance related to calculating the full cost of the services
    related to user fees. IRS management will continue to validate the information used in the
    most recent calculation of the user fee rates developed during the FY 2007 biennial review.
    The validation will be completed in May 2009.
•   Pursue a systemic correction that will prevent waiving user fees when initiating an
    installment agreement.
•   Implement a process which systemically transfers the appropriate fee amount into a
    taxpayer’s user fee account, regardless of whether a coupon was submitted.




                                                                                                     3
                        Installment Agreement User Fees Were Not Properly
                                  Calculated or Always Collected



•   Work with the Modernization and Information Technology Services organization to explore
    options to enhance the Installment Agreement Account Listing to better identify duplicate
    user fee payments.
•   Work to reduce or eliminate the possibility of charging erroneous duplicate user fees to
    taxpayers by coordinating with Submission Processing function Lockbox staff to eliminate
    split payment processing that often results in duplicate fees.
•   Continue to monitor the issue of duplicate fees during Operational, Managerial, and Quality
    reviews.
While IRS management agreed that user fee costs for new installment agreements and
reinstated/restructured agreements were incorrectly calculated during the 2005 review process, it
does not believe that taxpayers were overcharged or that the user fee for the direct debit
installment agreements was higher than appropriate. IRS management states that its revised
costing methodology developed during its 2007 biennial review showed that the user fees
proposed and implemented in January 2007 were actually below full cost. As such, IRS
management does not believe that excess user fee collections and the portion of user fees waived
for restructured/ reinstated installment agreements should be included as outcome measures. IRS
management’s complete response to the draft report is included in Appendix VII.

Office of Audit Comment
We are concerned with the IRS’ assertions related to its most recently revised user fee cost
estimate. In its response, the IRS did not state what it believes is the full cost of administering an
installment agreement; rather it only states that its current fees are below cost. The revised
methodology used in the FY 2007 biennial review is still under review and the final validation is
not expected to be completed until May 2009. In November 2007, IRS management first
discussed the tentative results of its recent biennial review but, at that point, the results were not
final or approved by IRS management. At the IRS’ request, we conducted a limited review of
the proposed changes. Based on this limited review, we identified and communicated to IRS
staff specific concerns we had with its new approach.
Requirements from the Office of Management and Budget Circular A-25 state that the results of
the IRS’ biennial review of user fees and any resultant proposals be included in its Chief
Financial Officers Annual Report, and that any exceptions should be forwarded to the Office of
Management and Budget for approval. The IRS completed its 2007 biennial review but did not
include the results in its Chief Financial Officers Annual Report and did not submit an exception
request to the Office of Management and Budget. Its new data and methodology have not been
reviewed by the Office of Management and Budget and its reliability has not been determined.
As such, we believe that the related outcome measure indicating that the IRS collected excess
amounts for user fees which could total $10.3 million for initial installment agreements and

                                                                                                    4
                       Installment Agreement User Fees Were Not Properly
                                 Calculated or Always Collected



$2.5 million for restructured/reinstated installment agreements are based on the best information
available.
We do not agree with IRS management’s position regarding the outcome measure for
increased revenue. IRS management did not agree that the full portion of fees waived for
restructured/reinstated user fees should be included in the measure. While IRS management
agreed that documentation was lacking to support waiving the fee, they do not believe it would
be correct to assume that all of these fees were waived incorrectly. Nevertheless, documentation
to justify any waiver is required by IRS procedures. There is no other practicable way to
determine whether the waiver was justified. Therefore, we believe our estimated outcome is
appropriately presented.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                5
                               Installment Agreement User Fees Were Not Properly
                                         Calculated or Always Collected




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          The Internal Revenue Service Incorrectly Estimated Installment
          Agreement User Fees....................................................................................Page 5
                    Recommendation 1:........................................................Page 8

          Some Installment Agreement User Fees Were Waived Without
          Proper Justification .......................................................................................Page 9
                    Recommendation 2:........................................................Page 12

                    Recommendation 3:........................................................Page 13

          Some Duplicate Installment Agreement User Fees Were Not
          Identified and Corrected ...............................................................................Page 13
                    Recommendation 4:........................................................Page 15

                    Recommendations 5 and 6: ..............................................Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Outcome Measures...............................................................Page 22
          Appendix V – Cost Estimate of Installment Agreements.............................Page 26
          Appendix VI – Effect of Revised Cost Calculations ....................................Page 32
          Appendix VII – Management’s Response to the Draft Report.....................Page 37
      Installment Agreement User Fees Were Not Properly
                Calculated or Always Collected




                Abbreviations

CAR       Collection Activity Report
FY        Fiscal Year
IRS       Internal Revenue Service
OMB       Office of Management and Budget
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected




                                            Background

All taxpayers are expected to pay the full amount of taxes owed when they file their tax returns.
However, when taxpayers do not have the funds necessary to make a full payment, the Internal
Revenue Service (IRS) may allow taxpayers to make installment payments. Such an agreement
between the IRS and the taxpayer allows payment over a prescribed period of time with interest
and penalties. The installment agreement may originate during written and verbal contact with a
taxpayer who has a balance-due account. Installment agreements can be granted for a period of
time not to exceed the collection statute of limitations (which is generally 10 years from the date
of assessment of the tax liability) with taxpayers making regularly scheduled payments until the
tax debt is paid.1
Each year, the IRS initiates approximately 1.5 million installment agreements with taxpayers that
allow them to pay delinquent Federal tax in installment payments. To offset the costs of
administration, the IRS charges a user fee for establishing an installment agreement. In Fiscal
Year (FY) 2006, the IRS reported that it collected approximately $79 million in user fees for
initiating and restructuring/reinstating installment agreements. For FY 2007, the IRS received
approval to increase the fee from $43 to $105 for new agreements and from $24 to $45 for
reinstated/restructured agreements. With the fee increase, the IRS estimated that the user fee
revenues would increase to about $101 million in FY 2007.
User fees are required by Federal law for services that primarily benefit individual recipients
over and above any benefit that might accrue to the general
public.2 Office of Management and Budget (OMB)
Circular A-25, User Charges, established Federal policy             User fees offset the cost of
regarding fees assessed for Federal Government services.              providing services that
                                                                    primarily benefit individual
The Circular provides information on the scope and types of         recipients over and above
activities subject to user fees and the basis upon which user      any benefit that may accrue
fees can be established. Per OMB Circular A-25, user fees              to the general public.
should only offset the full cost of providing a special
service, and the fees should be reviewed biennially and
adjusted as necessary. Both the Department of the Treasury and the OMB must approve new
and increased user fees proposed by the IRS. Once approved, the proposed regulation change to
increase the fees is published in the Federal Register for public comment.


1
  Streamlined installment agreements can be granted for balance-due accounts less than $25,000, which must be paid
within 5 years. Non-streamlined installment agreements can be for a longer duration but cannot exceed the
collection statute extension deadline, which is 10 years from the date of the assessment of the tax liability.
2
  31 U.S.C. § 9701 (2000 suppl. 5), Fees and Charges for Government Services and Things of Value.
                                                                                                          Page 1
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected



The IRS was first authorized to charge user fees for installment agreements in 1995. The basis
for authorizing this fee was that a taxpayer using this collection method was receiving a personal
benefit by paying a tax debt over time, rather than satisfying the outstanding debt in a single
payment. From FY 1995 through FY 2006, the fees were $43 to initiate a new installment
agreement and $24 to restructure or reinstate an installment agreement.3
Figure 1 shows the volume and amount of installment agreement user fees collected for the 11
years ending in FY 2006. The figure is shown in descending order from FY 2006 to
FY 1996.
          Figure 1: Installment Agreement User Fee Volumes and Collections


                          New (Initial) Installment          Restructured / Reinstated
                            Agreements ($43)                     Agreements ($24)
                                                                                               Total Annual
       Fiscal Year        Volume            Revenue           Volume           Revenue           Revenue

          2006            1,514,800         $65,136,393         568,512        $13,644,279       $78,780,672
          2005            1,528,983         $65,746,271         551,030        $13,224,726       $78,970,997
          2004            1,201,158         $51,649,780         459,254        $11,022,103       $62,671,883
          2003            1,359,274         $58,448,790         537,141        $12,891,377       $71,340,167
          2002            1,332,910         $57,315,115         447,077        $10,729,836       $68,044,951
          2001            1,412,359         $60,731,442         533,380        $12,801,127       $73,532,569
          2000            1,355,972         $58,306,807         500,277        $12,006,645       $70,313,452
          1999            1,597,484         $68,691,803         515,051        $12,361,226       $81,053,029
          1998            1,914,603         $82,327,949         447,077        $10,729,836       $93,057,785
          1997            1,728,882         $74,341,913         471,744        $11,321,846       $85,663,759
          1996            1,812,963         $77,957,407         550,049        $13,201,173       $91,158,580
    Source: IRS Chief Financial Officer.

To ensure that the user fees being assessed are periodically adjusted to reflect any changes in the cost
of providing the installment agreement, under OMB Circular A-25, the IRS is required to review
every 2 years the cost of providing installment agreements to taxpayers. The results of this review
for user fees charged by the IRS and any resultant proposals must be disclosed in the Chief
Financial Officer Annual Report required by the Chief Financial Officers Act of 1990.4 OMB

3
 26 Code of Federal Regulations 300.
4
 Pub. L. No. 101-576, 104 Stat. 2838 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
42 U.S.C.).
                                                                                                              Page 2
                          Installment Agreement User Fees Were Not Properly
                                    Calculated or Always Collected



Circular A-25 also requires that records of these reviews be maintained. This would include the
information used to justify the user fee charges and the specific methods used to determine the fee
structure.
In FY 1998, the IRS attempted to adjust the installment agreement user fees by proposing an
increase for initiating an installment agreement to $51 and for reinstating/restructuring an
installment agreement to $31. The IRS calculated costs for initial installment agreements at
$68.59 and restructuring/reinstating installment agreements at $35.95. However, the OMB
would not approve the lower rates because they did not comply with the full cost of providing
services as established in OMB Circular A-25.
The IRS did not pursue another request to raise the installment agreement user fees until
FY 2005, when it developed a proposal for an increase in the fee from $43 to $105 for new
installment agreements and from $24 to $45 for reinstated/restructured installment agreements
based on a FY 2004 cost estimate using 2003 data. The IRS also proposed a reduced user fee of
$52 for new direct debit installment agreements. The IRS believed that charging less than full
cost for installment agreements paid through a direct debit would encourage taxpayers to choose
to pay by this method, thereby saving the IRS processing time and cost.
In September and early October 2006, comments received in response to the Federal Register
notice proposing to raise the installment agreement user fees took exception to increasing the fee
for low-income taxpayers.5 As a result of those comments and through support of the National
Taxpayer Advocate, the IRS proposed and the OMB agreed to keep the fee for initiating an
installment agreement at $43 for low-income taxpayers. However, the low-income taxpayer
exception did not apply to the increased fee of $45 for restructuring/reinstating an installment
agreement. In January 2007, the IRS implemented the approved fee increases.
As a result of the fee increase, in FY 2007 the IRS collected $122.1 million and in FY 2008 it
expects to collect $150.3 million from initial and restructured/reinstated installment agreement
user fees. This includes $2.9 million in FY 2007 and an anticipated $7.3 million in FY 2008
from direct debit installment agreement user fees.6 The IRS was originally authorized to retain
user fee collections to augment its operating budget with a ceiling of $119 million.7 However,
the FY 2006 Appropriation Bill lifted the ceiling, and the IRS will now be allowed to retain all
user fees.
This review was performed at the IRS National Headquarters, the Office of the Chief Financial
Officer, and the Small Business/Self-Employed Division in Washington, D.C., and the Wage and
Investment Division in Atlanta, Georgia, during the period November 2006 through November
2007. We conducted this performance audit in accordance with generally accepted government

5
  Low-income taxpayers are defined as those taxpayers earning less than 250 percent of the poverty level.
6
  Revenue projections as of April 2007.
7
  Treasury, Postal Service and General Government Appropriations Act of 1995, Pub. L. No. 103-329, 108 Stat.
2388 (1994).
                                                                                                         Page 3
                      Installment Agreement User Fees Were Not Properly
                                Calculated or Always Collected



auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 4
                          Installment Agreement User Fees Were Not Properly
                                    Calculated or Always Collected




                                     Results of Review

The Internal Revenue Service Incorrectly Estimated Installment
Agreement User Fees
OMB Circular A-25 provides Federal policy on preparation of cost estimates for user fees and
establishes requirements for documenting that process. Cost estimates should be based on the
best available records and represent the full cost of providing the service. Reviews are required
every 2 years to keep the cost estimates for providing the special service current and to allow the
IRS to recover its actual costs for providing an installment agreement.
The IRS did not perform reviews of installment agreement user fees every 2 years as required by
the OMB. Reviews were performed in FY 1996 and FY 1998, but the next review was not
performed until FY 2004. Furthermore, the IRS did not adequately document the three reviews
that were performed, so we were unable to fully assess its overall decision process for these
reviews. Documenting this review process is important to provide justification that the user fees
are set fairly and only offset the cost of providing installment agreement services.
The IRS implemented new user fees from its FY 2004
cost estimate and from our review of the supporting
documentation, we determined that the new                             User fee increases were
installment agreement user fees were based on                           based on inaccurate
inaccurate cost estimate assumptions, calculation                     assumptions, calculation
                                                                      errors, and unsupported
errors, and unsupported costs. This resulted in higher                          costs.
user fees being collected than was justified.
The FY 2004 cost estimate was the basis for the user fee rate increase proposed in FY 2006.8
During our analysis of the FY 2004 cost estimate, IRS management described its overall
approach and assumptions. The IRS followed the FY 1994 calculations when preparing the
updated cost estimate and proposing the subsequent installment agreement user fee rate increases
to the Department of the Treasury and the OMB. However, we determined that the assigned cost
analyst and IRS management did not examine the prior cost estimate assumptions to ensure that
they remained valid and to ensure that the data used were the best data available for the FY 2004
cost estimate.



8
 The FY 2004 cost estimate was based on FY 2003 data and was limited to assessing the cost associated with
providing installment agreements to taxpayers under the assumption that all taxpayers were making monthly paper
check payments.
                                                                                                         Page 5
                          Installment Agreement User Fees Were Not Properly
                                    Calculated or Always Collected



Our review of the cost estimate was limited to specific line items. These items are highlighted in
Appendix V. Figure 2 summarizes the recalculated installment agreement user fee cost estimates
for the errors we identified and the effects of the recalculations for the labor, non-labor, and
indirect overhead cost categories.
             Figure 2: Cost Recalculations for Installment Agreement User Fee


                                  New (Initial) User Fee              Restructured/Reinstated User Fee
        Cost Category

                           IRS Calculation         Recalculated      IRS Calculation          Recalculated

     Labor                       $32.66               $32.55                 $13.80              $13.75

     Non-Labor                   $29.58               $21.55                 $12.50               $9.10

     Indirect Overhead           $39.17               $34.05                 $16.55              $14.38

     Total                       101.41               $88.15                 $42.85              $37.23

     Difference                           $13.26                                      $5.62

    Source: The IRS FY 2004 cost estimate and our review of that estimate.

The difference between the FY 2004 cost proposal for the IRS user fee estimates and our
recalculated user fee estimates was $13.26 for an initial installment agreement and $5.62 for a
restructured/reinstated installment agreement.9 However, the IRS actually proposed and
established user fees of $105 for an initial installment agreement and $45 for a
restructured/reinstated installment agreement, potentially overcharging taxpayers $16.85 for an
initial installment agreement and $7.77 for a restructured/reinstated installment agreement.
The issues we identified with the overall cost estimate for the new installment agreement user
fees were that the IRS could not provide adequate support and made calculation errors. More
details on the adjustments are included in Appendix VI. Overall, the IRS:
    •    Applied a 2.3 percent burden rate to the direct labor cost without adequate support.
    •    Incorrectly and inconsistently applied inflation rates for FYs 2004, 2005, and 2006 and
         did not have support for all the rates applied.


9
  These differences represent the errors we identified from our review of specific line items identified in
Appendix V. This was not a comprehensive review of the entire cost estimate but a focus on some of the most
significant line items.
                                                                                                             Page 6
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected



     •   Made rounding errors when applying the overhead rates for direct labor and employee
         benefits.
The following are issues we identified with the new installment agreement user fees cost
assumptions resulting in our adjustments (except as noted). More details on the adjustments are
included in Appendix VI. Overall, the IRS did not use the best data. For example, the IRS:
     •   Overstated installment agreement totals by incorrectly including taxpayers who were
         subject to continuous wage levies and taxpayers given an extension of time to pay their
         tax debt.10
     •   Overestimated the average number of payments per installment agreement.
     •   Overstated the installment agreement totals by double counting 395,763 agreements.
In addition, the IRS’ reduced fee of $52 for direct debit installment agreements was not based on
a cost analysis; rather, it was set at one-half of the $105 user fee for an initial installment
agreement. The IRS needs to change the way it estimates the cost of providing installment
agreements to ensure that costs associated with sending notices and processing checks are not
allocated to those with direct debit installment agreements. Because of the significant benefit of
direct debit to both taxpayers and the IRS, it is important for the IRS to ensure that the fee is not
set higher than the actual cost to provide the service to the taxpayer.
Based on the type and number of errors identified in the FY 2004 cost estimate, we believe that
the IRS rate increase proposals in FY 2005 were not adequately supported. Looking solely at the
information the IRS presented as its best available data for estimating the cost associated with
providing installment agreements, we do not believe that the IRS presented adequate
justification for recommending the current installment agreement user fees of $105 and $45 for
initial and restructured/reinstated installment agreements, respectively. Also, the IRS did not
have any documentation to justify the $52 reduced user fee for direct debit installment
agreements.
Consequently, we estimate that the IRS may have collected excess amounts in user fees on
940,821 accounts totaling $10.3 million for initiating installment agreements (616,728 accounts)




10
  Continuous wage levies and extensions of time to pay are not installment agreements. Therefore, they are not
subject to user fees. Using available data, the IRS could not readily separate accounts with continuous wage levies
and extensions to pay from the actual installment agreement accounts used in the FY 2004 calculation. Therefore,
we could not correct the number of installment agreements used in the labor and non-labor calculations and, by
doing so, estimate the amount of the resulting error in the FY 2004 cost estimate.
                                                                                                            Page 7
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected



and $2.5 million for restructuring/reinstating installment agreements (324,093 accounts) since
the new rate increase went into effect in January 2007.11
Because of the problems identified with its FY 2004 cost estimate and subsequent to our
analysis, the IRS examined its approach for setting installment agreement cost estimates and
claims significant revisions were made to the methodology. However, the new methodology is
still currently under review by IRS management. In its new methodology, the IRS has added and
changed cost factors it believes should be incorporated into the fee rate. Consequently, IRS
management believes that its current fees are not overstated. The data supporting this new
methodology were not available at the time of our review. Because of the problems we
identified with its previous methodology, we believe that IRS management should complete a
thorough quality review of the new methodology and supporting data for compliance with OMB
requirements for setting user fees before using the methodology as the basis for any decisions.

Recommendation
Recommendation 1: The Chief Financial Officer should ensure that the methodology used to
support installment agreement user fee rates is properly revised and that the best data available
are used to justify the rate increases. The new methodology and the cost estimating process
should be adequately supported and designed to be fair and equitable to the affected taxpayers.
         Management’s Response: IRS management agreed with this recommendation and
         will publish Internal Revenue Manual guidance related to calculating the full cost of the
         services for user fees. This guidance will include information on the type of direct and
         indirect costs to be included in calculating user fees. On an annual basis, the affected
         business units will be provided the overhead rates and the inflation rates to be included in
         the user fee rate calculations. The business units will remain responsible for assuring the
         completeness and correctness of the direct and indirect costs.
         IRS management will continue to validate the information used in the most recent
         calculation of the user fee rates developed during the FY 2007 biennial review. The
         validation will be completed in May 2009.
         IRS management disagreed with the conclusion that they overcharged taxpayers for
         installment agreement user fees and the outcome measure that the IRS may have
         collected $10.3 million in excess user fees.


11
  Our review of the cost estimates in the calculation was limited to specific line items (see Appendix V) in which
we evaluated the assumptions and data used by the IRS. We recalculated the installment agreement user fee cost
estimate by accounting for the errors we identified based on the data the IRS originally used. We developed a table
to show the cumulative effects of the recalculations for the labor, non-labor, and indirect overhead cost categories
(see Appendix VI). The results and projections were limited by the data available. However, better data may have
been available originally which the IRS either did not develop or use.
                                                                                                             Page 8
                             Installment Agreement User Fees Were Not Properly
                                       Calculated or Always Collected



           Office of Audit Comment: We are concerned with the IRS’ assertions related to its
           most recent revised user fee cost estimate. In its response, the IRS did not state what it
           believes is the full cost of administering an installment agreement. Rather, it only states
           that its current fees are below cost. The revised methodology used in the FY 2007
           biennial review is still under review and the final validation is not expected to be
           completed until May 2009. In November 2007, IRS management first discussed the
           tentative results of its recent biennial review but, at that point, the results were not final or
           approved by IRS management. At the IRS’ request, we conducted a limited review of the
           proposed changes. Based on this limited review, we identified and communicated to IRS
           staff specific concerns we had with its new approach.
           Requirements from OMB Circular A-25 state that the results of the IRS’ biennial review
           of user fees and any resultant proposals be included in its Chief Financial Officers
           Annual Report, and that any exceptions should be forwarded to the OMB for approval.
           The IRS completed its 2007 biennial review but did not include the results in its Chief
           Financial Officers Annual Report and did not submit an exception request to the OMB.
           Its new data and methodology have not been reviewed by the OMB and its reliability has
           not been determined. As such, we believe that the related outcome measure indicating
           that the IRS collected excess amounts for user fees, which could total $10.3 million for
           initial installment agreements and $2.5 million for restructured/reinstated installment
           agreements, are based on the best information available.12
           IRS management also disagreed that the user fee for Direct Debit Installment Agreements
           may have been higher than appropriate. However, IRS management did not provide a
           cost analysis supporting its reduced fee of $52 for direct debit installment agreements.

Some Installment Agreement User Fees Were Waived Without Proper
Justification
The IRS’ internal procedures require that installment agreement user fees be collected and
should never be waived when establishing an initial installment agreement. However, under
certain circumstances, the fee can be waived when restructuring/reinstating an existing
installment agreement. While there are a few instances that allow for a restructured/reinstated
installment agreement waiver, the procedures caution that: “The user fee cannot be waived at the
whim of an IRS employee.” In those rare instances where fees are waived, the employee is
required to document the reason for waiving the fee.
We obtained data on taxpayer accounts with active installment agreements during the period
October 1, 2005, through September 30, 2006, in which the accounts indicated there had been
installment agreement user fees recorded as due, paid, or waived during FY 2006. There were

12
     The excess collections were calculated from January through September 2007.
                                                                                                    Page 9
                          Installment Agreement User Fees Were Not Properly
                                    Calculated or Always Collected



1,426,083 taxpayer accounts in this data extract. Of these, we identified 37,259 taxpayer
accounts that appeared to have waived user fees. From this population, we reviewed a statistical
sample of 63 records to evaluate the reason the fees were waived. Figure 3 shows the results of
our review.
                     Figure 3: Waived Installment Agreement User Fees

 Documentation                                        Number of Accounts                   Percentage

 Adequate Documentation                                             6                          9.5%
 No Documentation                                                 52                         82.6%
 Documentation, but a Waiver Was Not
                                                                    5                          7.9%
 Authorized
 Total                                                            63                         100%
Source: Our review of waived installment agreement user fees during the period of October 1, 2005, through
September 30, 2006.

There was adequate documentation to support waiving the user fee for six accounts. However,
in the remaining 57 accounts, there was either no documentation to explain the reason for
waiving the fee or the documented reason was not authorized under the IRS’ internal procedures.
Of the 57 waived user fee accounts, 32 were user fees for initiating a new installment agreement
which, according to IRS procedures, should never be waived. We discussed our results with IRS
management who agreed there was a problem and immediately issued an alert reminding
managers and employees that the user fee for initiating a new installment agreement can never be
waived, and that user fees for reinstating/restructuring an installment agreement can only be
waived in the circumstances listed in the IRS’ internal procedures.
We interviewed 15 IRS employees who we identified as having waived an initial installment
agreement user fee for the taxpayer accounts sampled. The 15 employees interviewed suggested
2 potential explanations why a user fee for an initial installment agreement might have been
waived: (1) an IRS error caused a new user fee charge or (2) the employee made an error when
inputting the user fee code. These employees had been alerted by management about the
impropriety of waiving user fees prior to our interviews, so employee answers might have been
influenced by the recent management communication. While the employees could have
recorded the wrong user fee code, the IRS procedures are clear that employees should not waive
user fees for initiating an installment agreement. Nevertheless, there were 32 waivers involving
the user fees for initiating a new installment agreement. The remaining 25 waivers involved the
user fee for reinstating/restructuring installment agreements which could be authorized. For
example, if an account was reinstated after bankruptcy, the IRS internal procedures authorize
waiving the fee for reinstating the agreement. However, we were unable to determine if waiving


                                                                                                        Page 10
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected



the fees was justified because, in all 25 cases, the employees did not document the reasons for
the waiver as required by internal procedures.
Prior to our audit, there were no specific corrective actions taken to prevent inappropriately
waiving fees and to ensure that employees documented the reasons for waiving user fees as
required. Based on the results of our sample, we estimate for the population of 37,259 records
that 33,711 (90 percent) user fees were either inappropriately waived or waived without
providing adequate documentation to justify the waiver. Based on the results of our sample, we
estimate that the amount of uncollected installment agreement user fees could be $629,021 as a
result of improperly waiving the user fee for initiating an installment agreement. We could not
determine the actual amount of reinstated/restructured user fees that were improperly waived as
the required justification was not documented. Without adequate justification, $457,982 in
restructured/reinstated installment agreement user fees may have been waived inappropriately.

Installment agreement user fees were sometimes not collected from the first
payment
The normal process is for the user fee to be taken out of the first payment after the installment
agreement was initiated or restructured/reinstated. The initial reminder notice13 contained the
statement: “We charge a $43 user fee to cover the cost of providing installment agreements.
The $43 fee will be taken from your first monthly payment.”14 However, the IRS’ success in
obtaining the user fee depended on the taxpayer returning the coupon attached to the first
payment notice. If the coupon was not returned with the taxpayer’s payment, the user fee would
not be properly applied. Without the payment coupon, the installment agreement payment is
processed manually with the entire amount of the payment applied to the tax owed and the user
fee still outstanding. The next opportunity the IRS has to collect the unpaid user fees is through
a process in which a periodic system check identifies accounts where a user fee has been
assessed but remains uncollected. For the accounts identified during this system check, the user
fee is systemically deducted from a subsequent payment.
We reviewed a random sample of 138 taxpayer accounts from a population of 333,816 where
installment agreement user fees were identified through the system check. We evaluated these
accounts to determine when the user fee was collected and whether the fee was taken from an
installment agreement payment or from some other source. In all 138 accounts, the user fee was
collected from the taxpayer’s account.15 In 129 accounts, the fee was taken from an installment
payment and in 9 accounts the fee was taken from another source (e.g., tax payment or levy). In



13
   Installment Agreement Reminder Notice, CP521.
14
   For a user fee related to a restructured/reinstated installment agreement the fee noted was $24.
15
   Because in every case sampled the IRS did recover the installment agreement user fee due, we can be 95 percent
confident that the true error rate would not exceed 2.2 percent of the population, or 7,169 records.
                                                                                                         Page 11
                             Installment Agreement User Fees Were Not Properly
                                       Calculated or Always Collected



55 accounts, the fee was taken from the first installment agreement payment, and in 74 accounts
the fee was taken from a subsequent installment agreement payment.16
By not deducting the user fees from the first installment agreement payment, the taxpayers might
have received a minor benefit as the interest and penalty calculations were affected, because the
entire payment amount was applied against the taxes owed and not to user fees. This affected the
interest calculations, as the recorded tax payments were overstated by $43 or $24 depending on
whether the agreement was an initial installment agreement or a reinstated/restructured
installment agreement. While the amounts of interest lost would be minimal, the failure of the
process to ensure the collection of the installment agreement user fees upfront causes extra
effort, because the IRS must manually process payments due to missing coupons and then
systemically follow up to ensure that the appropriate user fees are collected.

Recommendations
Recommendation 2: The Commissioner, Wage and Investment Division, should establish a
system control to ensure that fees for initiating an installment agreement are not waived. Until
such a control is in place, revise established procedures to require a periodic review of waived
installment agreement user fees through the Installment Agreement Account Listing or another
process to ensure that fees for initiating installment agreements are not being waived. Also,
implement a review process to ensure that the justification for waiving restructured/reinstated
installment agreements is appropriately documented on the taxpayers’ accounts.
           Management’s Response: IRS management agreed with this recommendation and
           has submitted a programming request that would systemically prevent the waiving of user
           fees when initiating an installment agreement. Until the requested programming is in
           place, management will periodically request a run of installment agreement accounts to
           look for fees improperly waived. The results will be reviewed with appropriate feedback
           being provided to the functional areas as problems are identified. IRS management does
           not plan to implement a supplemental review process to ensure that the justification for
           waiving restructured or reinstated installment agreements is appropriately documented on
           the taxpayers’ accounts, but will continue to assess the adequacy of documentation
           during Operational, Managerial, and Quality reviews.
           IRS management also disagreed with our Increased Revenue outcome measure because
           they had concerns with the sample size and did not believe that the full portion of fees
           waived for restructured/reinstated user fees should be included in the measure. Although
           IRS management agreed that documentation was lacking to support waived fees, they did
           not agree that it was correct to assume that all of those fees were waived incorrectly.



16
     The periodic system check deducts the user fee from the last recorded payment on the account.
                                                                                                     Page 12
                      Installment Agreement User Fees Were Not Properly
                                Calculated or Always Collected



       Office of Audit Comment: The corrective actions that IRS management proposes
       should help reduce the numbers of inappropriately waived user fees. Using the
       Operational, Managerial, and Quality reviews as a test for adequate documentation will
       help identify whether the problem continues. If these reviews operate as intended, it
       should be sufficient to address our recommendation.
       We do not agree with IRS management’s position regarding the outcome measure for
       increased revenue. IRS management did not agree that the full portion of fees waived for
       restructured/reinstated user fees should be included in the measure. While IRS
       management agreed that documentation was lacking to support waiving the fee, they do
       not believe it would be correct to assume that all of these fees were waived incorrectly.
       Nevertheless, documentation to justify any waiver is required by IRS procedures. There
       is no other practicable way to determine whether the waiver was justified. Therefore, we
       believe our estimated outcome of $1,087,003 is appropriately presented.
Recommendation 3: The Commissioner, Wage and Investment Division, should revise the
procedures for processing installment agreement tax payments without a coupon. When there is
an outstanding user fee due, examiners should be instructed to first deduct the installment
agreement user fee from the payment before applying the balance of the payment to taxes due.
       Management’s Response: IRS management agreed with this recommendation and
       has implemented a process which systemically transfers the appropriate fee amount into a
       taxpayer’s user fee account, regardless of whether a coupon was submitted. IRS
       management believes this to be the best approach, as tax examiners will no longer be
       required to manually deduct installment agreement user fees from payments made by
       taxpayers.

Some Duplicate Installment Agreement User Fees Were Not Identified
and Corrected
The tax examiners in the Wage and Investment Division Compliance Services Collection
Operation function did not thoroughly research taxpayer accounts and correct duplicate user fee
collections. The Compliance Services Collection Operation function examiners focused their
case reviews on the most recent user fee entry that caused the duplicate to appear on the
Installment Agreement Account Listing, a weekly monitoring tool which provides an alert of
accounts requiring attention. The Compliance Services Collection Operation function requires
that all accounts appearing on the Installment Agreement Account Listing be reviewed and
corrected within 5 business days. For the second quarter of FY 2006, the accounts with potential
duplicate installment agreement user fee charges made up approximately 1.5 percent of the




                                                                                        Page 13
                          Installment Agreement User Fees Were Not Properly
                                    Calculated or Always Collected



Installment Agreement Account Listing workload.17 The tax examiners were to research these
accounts and correct any duplicate user fee charges by reversing the duplicate fee entry and
applying the excess user fee collection to the tax due.
We obtained data on taxpayer accounts that had multiple installment agreement user fee
payments of $43 occurring during the period October 1, 2000, through June 1, 2006.18 From this
population, we isolated 4,039 records (2,920 taxpayer accounts) showing multiple user fee
payments for initiating an installment agreement during the second quarter of FY 2006 (January
through March 2006).19 Of the 94 sampled taxpayer accounts, 27 accounts had duplicate user
fees inappropriately charged.
     •   In 14 accounts (15 percent), the duplicate user fee charges were inappropriate and the
         Compliance Services Collection Operation function did not identify or correct the
         duplicate payments during the Installment Agreement Account Listing reviews. In 5 of
         the 14 accounts, while the examiner identified the problem, the examiner did not make
         the necessary reversing entry in the system.
     •   In 13 accounts (14 percent), the duplicate user fees were inappropriately charged;
         however, the Compliance Services Collection Operation function did effectively correct
         the error when the Installment Agreement Account Listing was worked.
Projections from our population of 2,920 taxpayer accounts with potential duplicate user fee
payments indicated that 435 taxpayer accounts could have duplicate installment agreement user
fee payments that went unaddressed in the second quarter of FY 2006. The 435 taxpayer
accounts would represent $18,705 in uncorrected excess collections.20
For the population of 2,920 taxpayer accounts, we also determined that 425 (15 percent) of those
accounts appeared on the second quarter FY 2006 Installment Agreement Account Listing
multiple times for having duplicate user fee payments. These accounts had to be repeatedly
reviewed and, if necessary, corrected. The Compliance Services Collection Operation function
examiners and IRS management stated that they believed the user fee duplicates kept reoccurring
due to the taxpayer error of repeatedly sending copies of the first payment coupon from which
the installment agreement user fee is identified and collected. We were unable to verify this
because the actual payment coupons were not retained.



17
   The second quarter FY 2006 Installment Agreement Account Listing contained 129,466 records requiring review.
Included in this total were 1,941 records with potential duplicate installment agreement user fee charges.
18
   Until January 2007, the IRS charged $43 for establishing an installment agreement. At that time, the rate for
establishing an installment agreement was increased to $105.
19
   See Appendix IV for supplemental information on sample selection, data analysis, and the audit report
projections.
20
   This would be a conservative estimate as 4 (29 percent) of the 14 exception cases in our sample had more than
one unresolved duplicate payment.
                                                                                                       Page 14
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected



1, 3(d)
     1, 3(d)

                                                                    In such situations,
Compliance Services Collection Operation function procedures recognize that more than one
duplicate user fee being deducted might indicate that the taxpayer is submitting copies of the
initial Installment Agreement Reminder Notice with subsequent payments. The procedures
instruct the examiner to make contact with the taxpayer with the objective to prevent this from
reoccurring. If the taxpayer cannot be contacted directly, a
letter should be mailed to explain the proper method of
making installment agreement payments.21 However, the            Numerous accounts appear
taxpayers were not being contacted in every case. We were              on the Installment
                                                                 Agreement Account Listing
able to determine that the examiners made an attempt to                 multiple times.
contact the taxpayers regarding the duplicate user fee
payments in only 7 (26 percent) of the 27 accounts having
duplicate user fees inappropriately charged.22 When
reoccurring duplicate user fees are evident, taxpayers should be contacted so the payment
discrepancies can be resolved. This contact could have had a positive secondary impact by
helping to reduce the number of future problems and workload if the taxpayers used the correct
payment coupon.

Recommendations
Recommendation 4: The Commissioner, Wage and Investment Division, should coordinate
with the Modernization and Information Technology Services organization to modify the
Installment Agreement Account Listing to expand the information currently provided on
accounts with duplicate user fees to include information on the number of duplicates that exist,
allowing the examiner to prioritize for correction those accounts showing more than one
duplicate.
          Management’s Response: IRS management agreed with this recommendation and
          will work with the Modernization and Information Technology Services organization to
          explore options to enhance the Installment Agreement Account Listing to better identify
          duplicate user fee payments. IRS management will also provide employees with revised
          requirements for working the Installment Agreement Account Listing with duplicate user
          fees required to be worked as a priority.


21
  Under Internal Revenue Manual 5.19.1.12.12 (10), taxpayer contact should be made using Form Letter 3127C.
22
  In 9 (33 percent) of the 27 cases, we could not perform a complete analysis because the required data had dropped
from the system. Once an account is paid, some data related to the installment agreement are removed and no
longer accessible.
                                                                                                          Page 15
                       Installment Agreement User Fees Were Not Properly
                                 Calculated or Always Collected



Recommendation 5: The Commissioner, Wage and Investment Division, should reinforce
with first-line managers the importance of complying with the IRS’ internal procedures requiring
direct taxpayer contact when it becomes evident that the taxpayer may be repeatedly submitting
the initial payment coupon. Furthermore, a modification to the coupon and programming should
be considered to ensure that the fee is charged on the first payment and to eliminate the
possibility of double charging the fee.
       Management’s Response: IRS management agreed with this recommendation. To
       reduce or eliminate the possibility of charging erroneous duplicate user fees to taxpayers,
       IRS management is working with the Submission Processing function Lockbox staff to
       eliminate split payment processing that often results in duplicate fees. IRS management
       indicated that modification of the coupon will not be necessary because their corrective
       action to Recommendation 3 will ensure proper payment applications.
       Office of Audit Comment: We agree that the corrective action planned is sufficient to
       reduce or eliminate the possibility of charging erroneous duplicate user fees to taxpayers.
       In a subsequent discussion with IRS management, we were informed that its current
       efforts to change these procedures in the Internal Revenue Manual could take from
       6 months to a year to complete.
Recommendation 6: The Commissioner, Wage and Investment Division, should develop a
control/report which ensures that once examiners identify duplicate user fees, these duplicates
are reversed.
       Management’s Response: IRS management partially agreed with this
       recommendation. Due to the corrective actions currently planned or taken, IRS
       management expects the volume of duplicate user fees to be greatly reduced, which can
       be confirmed through the results of the periodic data run discussed in response to
       Recommendation 2. Therefore, management does not believe an additional control or
       report would be necessary but agreed to continue to monitor the issue of duplicate fees
       during the Operational, Managerial, and Quality reviews.
       Office of Audit Comment: Once the corrective actions currently planned or taken
       regarding duplicate user fees are implemented, we agree that IRS management can expect
       the volume of duplicate user fees to be reduced. Therefore, we agree that an additional
       control/report would not be necessary at this time. If, after continuing to monitor the
       issue of duplicate fees during its Operational, Managerial, and Quality reviews, it is
       determined that duplicates are still going uncorrected, management should reconsider this
       recommendation.




                                                                                          Page 16
                       Installment Agreement User Fees Were Not Properly
                                 Calculated or Always Collected



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The objective of this audit was to evaluate controls over establishing the amount of installment
agreement user fees, recognizing installment agreement user fee revenue, accounting for
installment agreement user fees, and correcting duplicate user fee payments. To accomplish our
objective, we:
I.     Determined whether the new installment agreement user fees offset the cost of the
       services provided as required by statute, regulation, and any supplemental guidance from
       the OMB, the Department of the Treasury, and the IRS.
       A. Determined whether the installment agreement user fees imposed in January 2007
          were designed to offset the cost of providing the service as required under OMB
          Circular A-25, User Fees. We reviewed OMB Circular A-25 and related guidance
          that should have been followed when preparing the proposed installment agreement
          user fee cost estimates. We obtained the costing for the proposed installment
          agreement user fee increase and analyzed and recalculated specific line items. We
          held discussions and obtained supporting documentation related to the costing from
          Chief Financial Officer’s office and Small Business/Self-Employed Division
          personnel. Our analysis showed differences which were discussed with IRS
          management. Using our results, we recalculated the overall impact the identified
          errors could have on taxpayers paying installment agreement user fees from January
          through September 2007.
       B. Verified whether the IRS performed the OMB required biennial reviews of
          installment agreement user fees to ensure that the full cost of the installment
          agreement program was being offset and the reviews were documented. We
          reviewed OMB Circular A-25 and OMB Circular A-123, Management Accountability
          and Control, to identify requirements. We reviewed the documentation obtained for
          the reviews performed (1994, 1998, and 2004) and held discussions with Chief
          Financial Officer’s personnel to discuss discrepancies.
II.    Determined whether the IRS collected the appropriate installment agreement user fee
       amounts from taxpayers who elected to pay their tax liabilities using installment
       agreements and, if user fees were waived, whether the waiver was appropriate.
       A. Determined whether the IRS ensured that installment agreement user fees were
          properly waived. We obtained and reviewed the Internal Revenue Manual, IRS
          memos, and documentation provided by an examiner on controls established to
          ensure that waived installment agreement user fees were justified. We obtained a

                                                                                         Page 17
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected



             data extract from the Individual Master File – Taxpayer Information File23 identifying
             a population of 90,948 unique waived initial user fee and restructured/reinstated user
             fee records. To validate the data, we selected 25 records and traced the data for each
             to the Integrated Data Retrieval System24 to ensure the accuracy of the data contained
             in the extracts. There were 44,088 unique taxpayer accounts represented in the 90,948
             records. We developed a sampling plan using a 95 percent confidence level, an
             expected error rate of 5 percent, and a precision of ±5 percent, which resulted in an
             initial random sample size of 73 waived records.25 We assessed the Integrated Data
             Retrieval System and Desktop Integration26 to determine whether the waived
             installment agreement user fees on selected accounts were authorized and, if
             authorized, properly justified. We discussed the exceptions with Wage and
             Investment Division management.
         B. Determined whether the IRS ensured that user fees were properly collected once
            assessed. We obtained a FY 2006 extract from the IRS Master File27 in which the
            user fee was not initially collected but later was systemically deducted from a
            subsequent taxpayer payment. To validate the data, we verified that all of the records
            that were in the mainframe files were included in the data provided. We developed a
            sampling plan using a 95 percent confidence level, an expected error rate of 10
            percent, and a precision of ±5 percent, which resulted in a random sample of 138
            taxpayer accounts from a population of 333,816. We evaluated these accounts to
            determine when the user fee was collected and whether the payment was taken from
            an installment agreement payment or from some other source. We discussed
            associated issues with IRS management.
III.     Determined whether the IRS properly identified and corrected erroneous duplicate
         installment agreement user fees charged against individual taxpayer accounts.
         A. Determined whether centralization of duplicate user fee resolution by the Compliance
            Services Collection Operation function improved by comparing workload statistics by
            quarter from October 1, 2003, through the March 31, 2006. However, with the results
            inconclusive, we elected to sample a population of accounts showing multiple user
            fee payments for initiating an installment agreement during the second quarter of

23
   The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
The Taxpayer Information File is an internal IRS database which allows for easy access to individual, business, and
other sources of data.
24
   An IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
25
   This sample was later reduced to 63. See Appendix IV for details on the sampling results and methodology.
26
   The Desktop Integration is a common interface that allows users of multiple IRS systems to view history and
comments from other systems and to access a variety of case processing tools.
27
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 18
           Installment Agreement User Fees Were Not Properly
                     Calculated or Always Collected



FY 2006 (January through March 2006). There were 2,920 unique taxpayer accounts
represented in the 4,039 records. We developed a sampling plan using a
95 percent confidence level, an expected error rate of 10 percent, and a precision of
±6 percent, which resulted in a random sample size of 94 accounts. We reviewed the
sample to determine whether the duplicate payments were justified. When not
justified, we evaluated each account to determine whether the duplicates were
effectively resolved. We discussed the exceptions with IRS management.




                                                                             Page 19
                     Installment Agreement User Fees Were Not Properly
                               Calculated or Always Collected



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Marybeth H. Schumann, Director
Bryce Kisler, Acting Director
James D. O’Hara, Audit Manager
William Simmons, Acting Audit Manager
Tanya Boone, Senior Auditor
Gwendolyn Green, Senior Auditor
Cindy Harris, Senior Auditor
Kristi Larson, Senior Auditor
Ronnie Summers, Senior Auditor
Sylvia Sloan-Copeland, Auditor
Robert Carpenter, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist
Judith Harrald, Information Technology Specialist
Layne Powell, Information Technology Specialist




                                                                                   Page 20
                    Installment Agreement User Fees Were Not Properly
                              Calculated or Always Collected



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
National Taxpayer Advocate TA
Chief Financial Officer OS:CFO
Associate Chief Financial Officer for Corporate Performance Budgeting OS:CFO:CPB
Associate Chief Financial Officer for Revenue Financial Management OS:CFO:R
Director, Communications and Liaison, Wage and Investment Division SE:W:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed
       Division SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Small Business/Self-Employed Division SE:S:SF
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   National Taxpayer Advocate TA
   Chief Financial Officer OS:CFO
   Director, Communications and Liaison, Wage and Investment Division SE:W:C
   Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed
       Division SE:S:CLD




                                                                                 Page 21
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected



                                                                                               Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
    •   Taxpayer Rights and Entitlements – Potential; the IRS might have collected excess
        amounts in user fees on 940,821 accounts totaling $10.3 million for initiating installment
        agreements (616,728 accounts) and $2.5 million for restructuring/reinstating installment
        agreements (324,093 accounts) since the new rate went into effect in January 2007 (see
        page 5).

Methodology Used to Measure the Reported Benefit:
To determine the potential excess amounts of installment agreement user fees collected, we
obtained the FY 2004 cost estimate for the proposed installment agreement user fee increase.
We reviewed the estimate and identified problems with source data and costs the IRS used in the
FY 2004 cost estimate that could not be supported. Our review of this estimate was limited to
specific line items in the calculation (Appendix V). The installment agreement user fee cost
estimates were recalculated addressing the individual errors. We developed a table to show the
cumulative effects of the individual recalculations for the labor, non-labor, and indirect overhead
cost categories. The recalculated initial user fee estimate was $88.27 and reinstated user fee was
$37.29 based on the individual error calculations (Appendix VI). However, the IRS actually
proposed and established user fees of $105 for initiating an installment agreement and $45 for
restructuring/reinstating an installment agreement, potentially overcharging taxpayers $16.73
[$105 - $88.27] and $7.71 [$45 - $37.29], respectively, based on our limited review.1
We obtained the FY 2007 installment agreement user fee collection data as of
September 28, 2007. From that data, we determined that the volume of new initial and
restructured/reinstated user fee collections from January through September 2007 to be
616,728 and 324,093, respectively, for a total of 940,821 accounts. Using these volumes, we


1
 The actual reduction using the cumulative error adjustments would be $16.85 ($105.00 - $88.15) for initiating an
installment agreement and $7.77 ($45.00 - $37.23) for restructuring/reinstating an installment agreement. The
minor differences of $0.12 ($16.85 - $16.73) and $0.06 ($7.77 and $7.71) are attributed to rounding differences
between the cumulative recalculation shown at Appendix V and the individual recalculations discussed in
Appendix VI. We used the smaller differences for our projected user fee overcharges.
                                                                                                          Page 22
                       Installment Agreement User Fees Were Not Properly
                                 Calculated or Always Collected



calculated an estimated overcharge of $10,317,859 [616,728 * $16.73] for initiating an
installment agreement and $2,498,757 [324,093 * $7.71] for restructuring/reinstating an
installment agreement for a total of $12,816,616.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; waived user fees on 33,711 individual taxpayer accounts for a
    total of $1,087,003. The amount of uncollected installment agreement user fees could be
    $629,021 as a result of improperly waiving the user fee for initiating an installment
    agreement. In addition, another $457,982 in waived user fees for restructuring/reinstating an
    installment agreement is questionable because the justification for waiving the fee was not
    adequately documented (see page 9).

Methodology Used to Measure the Reported Benefit:
To determine the potential amount of uncollected installment agreement user fees, we obtained a
data extract from the Taxpayer Information File of accounts with installment agreement user fees
recorded as due, paid, or waived during FY 2006. From this file containing 2,904,348 records
(1,426,083 unique taxpayer accounts), we isolated 90,948 records for 44,088 unique taxpayer
accounts with a waived user fee identified. From this population, we selected our sample in
3 parts starting with a sample of 30 cases. Based on the tentative results, we reviewed
20 additional cases and later expanded the sample to the predetermined size of 73 using a
95 percent confidence level, a ±5 percent precision rate, and a 5 percent expected error rate for
the population of 90,948. Because of the way the data were extracted, each taxpayer account
contained one or more account actions making up the 90,948 records. However, each unique
taxpayer account contained only one identified waived user fee. By selecting our sample using
the 90,948 records, some of the unique taxpayer accounts having higher numbers of account
actions had more of a probability of being selected in the sample than others. We believe that
the impact on our sample and resulting projections is negligible, because having more recorded
account actions would not make one taxpayer account more prone to error than another.
During our review of the 73 sampled accounts, we determined that Continuous Wage Levies
were included. Because Continuous Wage Levies are not installment agreements, we removed
them from the population of unique taxpayer accounts and from the sample. The 44,088 unique
taxpayer accounts included 6,829 Continuous Wage Levies. Deducting the Continuous Wage
Levies left 37,259 (44,088 – 6,829) installment agreement accounts with a waived user fee and
reduced our sample from 73 to 67. The sample was later reduced to 63 as 4 of the sampled
accounts could not be verified because they were dropped from the tracking system once the
installment agreement was paid. In 57 (90 percent) of the 63 cases, we determined that 32 fees
were improperly waived for initiating an installment agreement and 25 fees were waived without
providing adequate documentation for restructuring/reinstating an installment agreement.


                                                                                          Page 23
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected



Our projections were made using the 37,259 unique taxpayer accounts. Of the 37,259 unique
taxpayer accounts, 16,168 were for initiating an installment agreement and 21,091 were for
restructuring/reinstating an existing installment agreement. Using the 37,259 unique taxpayer
accounts, we projected the reported error rate (37,259 taxpayer accounts * 90.48 percent =
33,711 [±2,701]2 ). The projections were calculated using valid statistical formulas to estimate
the variable range of taxpayer account errors. We used the 33,711 taxpayer accounts to calculate
the amount of additional fees the IRS should have collected including an additional $629,021
[((16,168/37,259) * 33,711) * $43] in initial user fees and $457,982 [((21,091/37,259) * 33,711)
* $24] for restructuring/reinstating an installment agreement.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 435 taxpayer accounts with duplicate
    installment agreement user fee payments that went unaddressed in the second quarter of
    FY 2006. These accounts were overcharged user fees totaling $18,705 [435 taxpayer
    accounts * $43] (see page 13).

Methodology Used to Measure the Reported Benefit:
To determine the number of accounts that could have unaddressed duplicate installment
agreement user fee payments, we obtained data on taxpayer accounts with multiple installment
agreement user fee payments of $43 during the period from October 1, 2000, through
June 1, 2006.3 From this population, we isolated 4,039 records representing 2,920 taxpayer
accounts showing multiple user fee payments for initiating an installment agreement during the
second quarter of FY 2006 (January through March 2006). We selected a sample of 94 accounts
based on a population of 4,039 records (2,920 taxpayer accounts), using a confidence level of
95 percent, a precision level of ±6 percent, and an expected error rate of 10 percent.
We first reviewed a probe sample of 30 accounts and then the remaining 64 accounts sampled.
In 14 (15 percent) of the 94 accounts, the duplicate user fee charges were inappropriate and the

2
  Calculated as follows: 37,259 taxpayer accounts * +7.25 percent (actual precision) = +2,701. The lower limit of
the range is 33,711 – 2,701 = 31,010 taxpayer accounts. The upper limit of the range is 33,711 + 2,701 = 36,412
taxpayer accounts.
3
  Until January 2007, the IRS charged $43 for establishing an installment agreement. At that time, the rate for
establishing an installment agreement was increased to $105.




                                                                                                          Page 24
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected



Wage and Investment Division Compliance Services Collection Operation function did not
identify or correct the duplicate payments during its normal review process. We projected our
results to the 2,920 taxpayer accounts to emphasize the number of taxpayer accounts having
potential duplicate user fee payments. Out of the 2,920 taxpayer accounts in the second quarter
of FY 2006 with duplicate user fee payments, 435 went uncorrected (2,920 taxpayer
accounts * 14.89 percent = 435 [±207]).4 The projection was calculated using valid statistical
formulas to estimate the variable range of total taxpayer error accounts in the population.




4
 Calculated as follows: 2,920 taxpayer accounts * +7.09 percent (actual precision) = +207. The lower limit of the
range is 435 - 207 = 228 taxpayer accounts. The upper limit of the range is 435 + 207 = 642 taxpayer accounts.




                                                                                                         Page 25
                              Installment Agreement User Fees Were Not Properly
                                        Calculated or Always Collected



                                                                                                Appendix V

                  Cost Estimate of Installment Agreements

Table 1 shows the FY 2004 labor cost estimate used by the IRS for the proposed initial and
restructured/reinstated installment agreements. Table 2 shows the non-labor cost estimate, and
Table 3 summarizes the labor and non-labor results applying the IRS overhead rate for the
overall user fee totals. The information contained in the brackets [ ] identifies the source for the
data used to support the calculation. The highlighted lines identify those items of the calculation
that were reviewed during this audit.

                                               Table 1 - Labor Cost Estimate

                                                                               IRS               TIGTA
                                                                            Calculation       Recalculation
    1     Number of Installment Agreements [FY 2003 Collection Activity         2,859,111          2,463,348
                       1
          Report (CAR) 5000-6 Part 1; 1.1]
    2                                     2                                               -                   -
          Rate per hour [FY 2003 WP&C for Wage and Investment
                                                           3
          Division Compliance Services Collection Operation 62010 and
                                      4
          62020; estimate for others]
    3     Direct hours (add items in the Direct hours rows for individual         2,420,232          2,024,469
          functions)
    4     Quality Review - 2.2% Direct [Internal Revenue                            53,245              44,538
          Manual 3.30.10-3] (multiply line 3 by 2.2%)
    5     Overhead - average 90% direct [Internal Revenue                         2,178,209          1,842,267
          Manual 3.30.10-2] (multiply line 3 by 90% for IRS and 91% for
          TIGTA)
    6     Total Staff Hours (add lines 3, 4 and 5)                                4,651,686          3,911,274




1
  The CAR includes Integrated Data Retrieval System data extracts of installment agreements. The Integrated Data
Retrieval System is the IRS computer system capable of retrieving or updating stored information; it works in
conjunction with a taxpayer’s account records.
2
  Compliance Work Plans and Control (WP&C) reports use standard work codes to show time expended and volume
of work processed. The data are compiled from employees’ time reports.
3
  Compliance Service Collections Operation includes the Automated Collection System. The Automated Collection
System is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns
from delinquent taxpayers who have not complied with previous notices.
4
  The IRS did not provide an average rate per hour for all functions. Individual rates per hour were applied to the
number of installment agreements for each individual function with the sum for all those functions included on line
number 3.
                                                                                                         Page 26
                                 Installment Agreement User Fees Were Not Properly
                                           Calculated or Always Collected




                                             Table 1 - Labor Cost Estimate (Con’t)
                                                                                           IRS               TIGTA
                     Installment Agreement Account Listing Costs
                                                                                        Calculation       Recalculation
        7    Hourly Salary [FY 2004 salary tables, average locality pay,
                      5
             rounded]
        8    Labor                                                                  $     94,025,380.64   $       80,262,177.07

        9    Total Labor (with average 25% benefits) [Internal Revenue              $    117,531,725.80   $ 101,130,343.11
             Manual 3.30.10-1](multiply line 8 by 1.25 for IRS and 1.26 for
             TIGTA)
        10   Inflation rate for FY 2005 (2.23% for IRS and 3.50% for TIGTA)         $ 123,549,350.16      $ 107,914,672.17
             and FY 2006 (2.89% for IRS and 3.10% for TIGTA)
             (For IRS multiply line 9 by each of the inflation rates then add the
             two results to line 9. For TIGTA multiply line 9 by the FY 2005
             rate and that result by the FY 2006 rate with the final result on
             line 10)
        11   Labor Cost per agreement taken (divide line 10 by line 1)              $            43.21    $              43.81
        12   Allocate 70.3% to the Initial fee [CAR 5000-6 Part 2; 4.2]             $            30.38    $              30.80
             (multiply line 11 by 70.3%)
        13   Allocate 29.7% to Restructured/Reinstated fee [CAR 5000-6              $            12.83    $              13.01
             Part 2; 4.9]
             (multiply line 11 by 29.7%)
        14   Volume - Installment Agreement Accounts Listing (Installment                     2,064,699              2,064,699
             Agreement Account Listing) [WP&C]

        15   Rate per hour [WP&C]                                                                  17.5                    17.5

        16   Direct hours                                                                      117,983                 117,983
             (divide line14 by line 15)

        17   Quality Review (2.2% Direct) [Internal Revenue                                      2,596                   2,596
             Manual 3.30.10-3] (multiply line 16 by 2.2%)

        18   Overhead (average 90% direct) [Internal Revenue                                   106,185                 107,364
             Manual 3.30.10-2] (multiply line 16 by 90% for IRS and 91% for
             TIGTA)

        19   Total Staff Hours (add lines 16 – 18)                                             226,763                 227,943

        20   Hourly Salary [FY 2004 locality salary table, rounded]                 $            16.78     $             16.78

        21   Labor                                                                  $     3,805,082.16     $       3,824,879.67
             (multiply line 19 by line 20)

        22   Total Labor (with average 25% benefits) [Internal Revenue              $     4,756,352.70        $    4,819,348.39
             Manual 3.30.10-1] (multiply line 21 by 1.25 for IRS and 1.26 for
             TIGTA)




5
    The IRS did not provide an average hourly salary rate. The salaries were applied to each individual function.
                                                                                                                          Page 27
                              Installment Agreement User Fees Were Not Properly
                                        Calculated or Always Collected




                                          Table 1 - Labor Cost Estimate (Con’t)
                                                                                          IRS              TIGTA
                                                                                       Calculation      Recalculation
     23    Inflation rate for FY 2005 (3.50%) and FY 2006 (3.10%) (IRS did         $            -       $   5,142,654.38
           not apply inflation. For TIGTA multiply line 22 by the FY 2005
           rate and the result by the FY 2006 rate with the final result on line
           23)

     24    Cost per Installment Agreement Account Listing case                                      6   $          2.49
                                                                                   $          2.20
           (divide line 22 for IRS and line 23 for TIGTA by line 14)

     25    Allocate 70.3% to the Initial fee [CAR 5000-6 Part 2; 4.2]              $           1.55     $          1.75
           (multiply line 24 by 70.3%)

     26    Allocate 29.7% to Restructured/Reinstated fee [CAR 5000-6 Part          $            0.65    $           0.74
           2; 4.9] (multiply line 24 by 29.7%)

     27    Add Burden to the Initial fee @ 2.3%                                        $        0.73                      7
                                                                                                        $             -
           (add lines 12 and 25. Multiply by 2.3%)

     28    Add Burden Restructured/Reinstated fee @ 2.3%                               $       0 .31                      8
                                                                                                        $             -
           (add lines 13 and 26. Multiply by 2.3%)

     29    Labor Costs - Initial Fee                                                   $       32.66    $         32.55
           (add lines 12, 25 and 27 for IRS and lines 12 and 25 for TIGTA)

     30    Labor Costs – Restructured/Reinstated Fee                                   $       13.80    $         13.75
           (add lines 13, 26 and 28 for IRS and lines 13 and 26 for TIGTA,
           rounded)




6
  Calculates to $2.30, but the IRS allocated $2.20 so we are showing this amount.
7
  We eliminated the burden rate because the IRS could not provide support for it.
8
  We eliminated the burden rate because the IRS could not provide support for it.
                                                                                                                   Page 28
                              Installment Agreement User Fees Were Not Properly
                                        Calculated or Always Collected




                                            Table 2 –Non-Labor Cost Estimate

                                                                                   IRS                   TIGTA
                                                                                Calculation           Recalculation
    1     Number of Installment Agreements [CAR 5000-6 Part 1; 1.1]                   2,859,111                  2,463,348

    2     Average # payments per agreement [CAR 5000.6 Part 1; 2.1.1.6]                           9                         10
                                                                                          44.21                     31.02

    3     Total Reminder Notices (& payments) (multiply lines 1 by 2)               126,406,432                 76,413,055

    4     Notices (2 laser pages per notice; 4 per joint account - use          $   1,721,655.60      $        1,040,745.81
          average 3) @ $4.54 per 1,000 [Internal Revenue
          Manual 3.30.10-42] (divide line 3 by 1,000, multiply by $4.54, then
          multiply by 3, the average)

    5     Envelope E178 @ $14.92 per 1,000 [Internal Revenue                    $   1,885,983.97      $       1,140,082.78
          Manual 3.30.10-42] (divide line 3 by 1,000 then multiply
          by $14.92)

    6     Envelope E205 @ $10.04 per 1,000 [Internal Revenue                    $   1,269,120.58      $         767,187.07
          Manual 3.30.10-42] (divide line 3 by 1,000 then multiply
          by $10.04)

    7     Postage @ $.352 [Internal Revenue Manual 3.30.10-41]                  $ 44,495,064.06       $       26,897,395.35
          (multiply line 3 by $.352)

    8     Total Cost - Reminder Notices                                         $ 49,371,824.21       $       29,845,411.01
          (add lines 4 – 7)

    9     Inflation rate for FY 2004 (1.4%), FY 2005 (1.5%), FY 2006            $ 51,593,556.30           $   31,208,670.59
          (1.6%) (For IRS multiply line 8 by each of the inflation rates then
          add the results to line 8. For TIGTA multiply line 8 by the FY04
          rate, the result by the FY05 rate, and that result by the FY06 rate
          with the final product on line 9)

    10    Cost per Installment Agreement (divide line 9 by line 1)              $         18.05       $              12.67




9
  The IRS did not provide an average number of payments for all functions. Individual averages were applied to the
number of installment agreements for each individual function with the sum for all those functions. The sum of the
results for all the functions was included on line 3. Dividing line 3 by line 1 produces the weighted average of
44.21.
10
   Correctly calculating the average number of payments based on data the IRS used in its FY 2004 cost estimate
resulted in an adjusted weighted average for the number of payments totaling 10.51 months. Once this error was
disclosed, the IRS re-estimated the average number of payments using a new methodology, which resulted in a
31.02 month average. While we did not audit the new estimate, we believed that it was a better estimate of the life
of an installment agreement than the 10.51 months computed from data the IRS elected to use in its FY 2004 cost
estimate. Therefore, our recalculation is based on using the IRS’ adjusted estimate of 31.02 months.
                                                                                                                      Page 29
                         Installment Agreement User Fees Were Not Properly
                                   Calculated or Always Collected




                                    Table 2 –Non-Labor Cost Estimate (Cont.)

                                                                               IRS                TIGTA
                                                                            Calculation        Recalculation
11   Allocate 70.3% to Initial fee [CAR 5000-6 Part 2; 4.9] (multiply       $         12.69    $                    8.91
     line 10 by 70.3%)

12   Allocate 29.7% to Restructured/Reinstated fee [CAR 5000-6 Part         $           5.36   $                    3.76
     2; 4.9] (multiply line 10 by 29.7%)

13   Cost to process payment @ $521.16 per 1,000 [Internal Revenue          $ 65,877,976.10    $           39,823,427.72
     Manual 3.30.10-20]
     (divide line 3 by 1,000 then multiply by $521.16)

14   Inflation rate for FY 2004 (1.4%), FY 2005 (1.5%), FY 2006             $              -    $          41,642,456.77
     (1.6%) (IRS did not apply inflation. For TIGTA multiply line 13 by
     the FY 2004 rate, the result by the FY 2005 rate, and that result
     by the FY 2006 rate with the final product on line 14)

15   Cost per Installment Agreement                                         $         23.04    $                  16.90
     (divide line 13 for IRS and line 14 for TIGTA by line 1)

16   Allocate 70.3% to Initial fee [CAR 5000-6 Part 2; 4.2] (multiply       $         16.20    $                  11.88
     line 15 by 70.3%)

17   Allocate 29.7% to Restructured/Reinstated fee [CAR 5000-6              $           6.84       $                5.02
     Part 2; 4.9] (multiply line 15 by 29.7%)

     Costs for Installment Agreement Defaults

18   Number of Defaults [CAR 5000.6 Part 1; 2.1.2]                                  976,316                     877,103

19   Notices (2 laser pages per notice; 4 per joint account - use           $     13,297.42            $      11,946.14
     average 3) @ $4.54 per 1,000 [Internal Revenue
     Manual 3.30.10-42]
     (divide line 18 by 1,000, multiply by $4.54, then multiply by 3, the
     average)
20   Stuffers @ $64 per 1,000 [estimates per Internal Revenue               $     62,484.22            $      56,134.59
     Manual 3.30.10-42]
     (divide line 18 by 1,000 then multiply by $64)
21   Envelope E142 @ $19.20 per 1,000 [Internal Revenue                     $     18,745.27            $      16,840.38
     Manual 3.30.10-42]
     (divide line 18 by 1,000 then multiply by $19.20)
22   Envelope E205 @ $10.04 per 1,000 [Internal Revenue                     $      9,802.21            $        8,806.11
     Manual 3.30.10-42]
     (divide line 18 by 1,000 then multiply by $10.04)
23   Postage (certified) @ $2.80 [Internal Revenue                          $   2,733,684.80       $        2,455,888.40
     Manual 3.30.10-41]
     (multiply line 18 by $2.80)
24   Total Cost - Default Notices                                           $   2,838,013.93       $        2,549,615.63
     (add lines 19 – 23)




                                                                                                                   Page 30
                          Installment Agreement User Fees Were Not Properly
                                    Calculated or Always Collected




                                   Table 2 –Non-Labor Cost Estimate (Cont.)

                                                                                IRS                  TIGTA
                                                                             Calculation          Recalculation
25    Inflation rate for FY 2004 (1.4%), FY 2005 (1.5%), FY 2006                 $           -      $       2,666,075.34
      (1.6%) (IRS did not apply inflation. For TIGTA multiply line 24 by
      the FY 2004 rate, the result by the FY 2005 rate, and that result
      by the FY 2006 rate with the final product on line 25)
26    Cost per Installment Agreement                                         $            0.99          $               1.08
      (divide line 24 for IRS and line 25 for TIGTA by line 1)
27    Allocate 70.3% to Initial fee [CAR 5000-6 Part 2; 4.2]                 $            0.70          $               0.76
      (multiply line 26 by 70.3%)
28    Allocate 29.7% to Restructured/Reinstated fee [CAR 5000-6 Part         $            0.29          $               0.32
      2; 4.9] (multiply line 26 by 29.7%)

29     Non-labor cost - Initial Fee                                          $           29.58      $                  21.55
      (add lines 11, 16, and 27)
30     Non-labor cost – Restructured/Reinstated Fee                          $           12.50          $               9.10
      (add lines 12, 17, and 28)




                                      Table 3 - Summary of Cost Estimates
1                                        Initial              Initial        Restructured/        Restructured/
                                      Installment          Installment        Reinstated           Reinstated
                                      Agreement            Agreement          Installment          Installment
                                         (IRS)               (TIGTA)          Agreement            Agreement
                                                                                 (IRS)               (TIGTA)
2    Labor costs                             $   32.66           $   32.55           $    13.80                $       13.75
     (Table 1, lines 29 and
     30)
3    Non-labor costs                         $   29.58           $   21.55           $    12.50                    $    9.10
     (Table 2, lines 29 and
     30)
4    Totals                                  $   62.24           $   54.10           $    26.30                $       22.85


5    Overhead at 62.93%                      $   39.17           $   34.05           $    16.55                $       14.38
     (multiply line 4 above
     by 62.93%)
6    Overall User Fee                        $ 101.41            $   88.15           $    42.85                $       37.23
     Totals
     (add lines 4 and 5
     above)




                                                                                                                       Page 31
                            Installment Agreement User Fees Were Not Properly
                                      Calculated or Always Collected



                                                                                                    Appendix VI

                    Effect of Revised Cost Calculations

Our review of the 2004 cost estimate disclosed problems with the cost assumptions used in the
actual cost calculation, calculation errors, and unsupported costs. The differences were
calculated to show the individual effect each error had on the cumulative overstatement. The
overall impact of the problems identified is summarized in the following table.
                                     User Fee Unit Cost Recalculations

                  Cost Category                     Labor Costs      Non-Labor        Indirect           Total
                                                                       Costs         Overhead1

    Initial User Fee – IRS                                $32.66          $29.58          $39.17          $101.41

    1. Continuous Wage Levies and Extensions                    -               -               -                  -
    to Pay

    2. Average Number of Payments                               -          (8.62)          (5.43)          (14.05)

    3. Double Counted Installment Agreements                (.45)             .03           (.26)            (.68)

    4. Unsupported Burden Rate                              (.74)               -           (.47)           (1.21)

    5. Unsupported Inflation Rates                            .66             .56             .77             1.99

    6. Overhead Rounding Errors                               .50               -             .31                .81

    Total2                                                $32.63          $21.55          $34.09           $88.27

    Rounding Difference                                                                                     (.12)3




1
  The calculation for Indirect Overhead is (Labor Costs + Non-Labor Costs) * 62.93 percent.
2
  The actual difference for the individual error estimates would be the difference between the actual $105 user fee
charged and the total shown or $16.73 ($105.00 - $88.27).
3
  The calculation for the Rounding Difference is the Total minus the Revised Total. The Revised Total is the
number we calculated. This difference is due to the IRS rounding some numbers in its formulas when calculating
the line items. Therefore, when we calculated the figures based on the errors individually and collectively, they did
not match due to the rounding that occurred in the formulas.
                                                                                                            Page 32
                            Installment Agreement User Fees Were Not Properly
                                      Calculated or Always Collected




    Revised Total                                                                                          $88.15

    Difference                                                                                           ($13.26)




    Restructured/Reinstated User Fee                      $13.80          $12.50          $16.55           $42.85
    - IRS

    1. Continuous Wage Levies and Extensions                    -               -               -                -
    to Pay

    2. Average Number of Payments                               -          (3.64)          (2.29)           (5.93)

    3. Double Counted Installment Agreements                (.19)             .01           (.11)            (.29)

    4. Unsupported Burden Rate                              (.31)               -           (.20)            (.51)

    5. Unsupported Inflation Rates                            .28             .23             .32              .83

    6. Overhead Rounding Errors                               .21               -             .13              .34

    Total4                                                $13.79           $9.10          $14.40           $37.29

    Rounding Difference                                                                                     (.06)5

    Revised Total                                                                                          $37.23

    Difference                                                                                             ($5.62)

Source: The IRS FY 2004 cost estimate and our review of that estimate.
Note: The Indirect Overhead was recalculated based on the sum of the revised Labor and Non-Labor times 62.93%.

The overall difference between the 2004 cost for establishing an initial installment agreement
and for a reinstating/restructuring of an existing installment agreement was estimated at $13.26


4
  The actual difference for the individual error estimates would be the difference between the actual $45 user fee
charged and the total shown or $7.71 ($45.00 - $37.29).
5
  The calculation for the Rounding Difference is the Total minus the Revised Total. The Revised Total is the
number we calculated. This difference is due to the IRS rounding some numbers in its formulas when calculating
the line items. Therefore, when we calculated the figures based on the errors individually and collectively, they did
not match due to the rounding that occurred in the formulas.
                                                                                                            Page 33
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected



and $5.62, respectively. The following are the different problems we identified with the cost
assumptions used in the actual cost calculation, calculation errors, and unsupported costs
resulting in our adjustments (except as noted). In the 2004 cost estimate, the IRS incorrectly:
     •   Included taxpayers who were subjected to a continuous wage levy and taxpayers given
         an extension of time to pay their tax debt rather than paying under an installment
         agreement.6 The IRS took this data from a line item in the CAR. At that time, IRS
         management was unaware of a method to separate the continuous wage levies and
         extensions to pay from the total; therefore, they overstated the number of installment
         agreements in the calculation. We later determined that continuous wage levies and
         accounts with extensions could be identified using the Collection Information Locator
         Number field. While we could not analyze the 2003 data used in the IRS’ cost estimate,
         we made an assessment based on accounts we had obtained from the Taxpayer
         Information File with an installment agreement status code in FY 2006 and determined
         that, out of a population of 2,904,348 records, 14,262 records (9,412 unique taxpayer
         accounts) were related to continuous wage levies and 162,364 records (133,556 unique
         taxpayer accounts) were related to extensions to pay and not installment agreements.7
         Being subjected to a continuous wage levy and getting an extension to pay does not
         result in an installment agreement, and a user fee is not charged. While the 10 percent
         (based on unique taxpayer accounts) does not represent the entire amount of extensions
         to pay and continuous wage levies that would have been entered into during FY 2006, it
         shows that those accounts could be identified and should have been eliminated from the
         CAR data used in the FY 2004 cost estimate.8
     •   Estimated the average number of payments per installment agreement that had a
         significant impact on the non-labor calculation. The IRS extracted the number from a
         workload report9 assuming that the data represented the number of monthly payments.

6
  Accounts with continuous wage levies, extensions of time to pay their taxes, and installment agreements are
identified in IRS systems with the same status code. However, the accounts with continuous wage levies and
extensions can only be identified through the Agreement Locator Number.
7
  Using available data, the IRS could not readily separate accounts with continuous wage levies and extensions to
pay from the actual installment agreement accounts used in the FY 2004 calculation. Therefore, we could not
correct the number of installment agreements used in the labor and non-labor calculations. As a result, we were
unable to estimate the amount of the resulting error in the FY 2004 cost estimate. Our estimate of extensions to pay
accounts in FY 2006 was determined by using the designator in the Collection Information Locator Number (which
is the same as the Agreement Locator Number) to identify those types of accounts.
8
  The data pulled from the IRS Taxpayer Information File was a snapshot in time of the accounts with installment
agreements established during FY 2006. Because accounts are deleted from this system when paid, those extensions
to pay and continuous wage levies granted and paid during FY 2006 would not be included in the data extract.
Therefore, while we found a 10 percent rate of occurrence, the actual occurrence for FY 2006 would be higher.
9
  The CAR includes Integrated Data Retrieval System data on installment agreements. The Integrated Data
Retrieval System is an IRS computer system capable of retrieving or updating stored information; it works in
conjunction with a taxpayer’s account records.
                                                                                                          Page 34
                           Installment Agreement User Fees Were Not Properly
                                     Calculated or Always Collected



         However, we determined from the workload documentation for the CAR report that the
         data actually represented the number of weeks until the installment agreement was paid,
         not monthly payments. We adjusted the data used to reflect monthly payments, which
         resulted in the weighted average for the number of installment agreement payments
         being reduced to 10.51 months from the 44.21 months used by the IRS in the FY 2004
         cost estimate (See Appendix V). If the data had been applied correctly in the calculation,
         it would have been evident to management that the data used were flawed because most
         installment agreements would last much longer than the 10.51 months computed. When
         we brought this error to the IRS’ attention, it was quickly pointed out that using and
         correctly adjusting the original data resulted in an average number of payments that was
         too low. The IRS then took steps to devise an alternate methodology and recalculated
         the average number of payments using the 2003 data. The revised estimate was
         35.6 months.10 While we did not audit the revised method for calculating the average
         number of monthly payments, we did note a couple of items for the IRS to consider in its
         approach, which resulted in another revised estimate of 31.02 months.11 While this
         estimate might still not be completely refined, we believe it provides a more realistic
         estimate of the average number of payments than the results obtained from adjusting the
         original data used in the FY 2004 cost calculation. Therefore, when calculating the
         results of the error, we used the 31.02 month estimate. Overstating the estimated number
         of payments had the effect of overestimating the non-labor cost associated with the user
         fee for initiating an installment agreement and the user fee for restructuring/reinstating
         an installment agreement by $(8.62) and $(3.64), respectively. Considering the effect on
         the indirect overhead calculation, this resulted in a reduction of $(14.05) and $(5.93).
     •   Double counted 395,763 installment agreements by including the same installment
         agreements in 2 separate cost categories. This affected the results of both the labor and
         non-labor cost estimates. Correcting the double counting resulted in reducing the cost of
         the installment agreement initial user fee by $(0.42) [$(0.45) + $0.03] and the
         restructuring/reinstating user fee by $(0.18) [$(0.19) + $0.01]. Considering the effect on
         the indirect overhead calculation, this error resulted in a reduction of $(0.68) and $(0.29)
         to the initial and restructured/reinstated user fees, respectively.


10
   Instead of using the data depicting the average cycles (weeks) until an installment agreement was paid, the IRS
recalculated using data on the projected number of payments when the installment agreement was set up. However,
this new method does not consider that installment agreements could be paid early or that installment agreements
could default.
11
   The IRS originally proposed a revised estimate of 35.6 as the average monthly payments. However, after
discussion, IRS management made further adjustments that reduced the new estimate to 31.02 months. We believe
the IRS should further refine this approach and, before using the estimate, clearly explain why using the projected
number of payments for an installment agreement would be preferable to using data on the actual number of
payments made to settle installment agreements. Using the actual number of installment agreement payments, if the
data collected could be determined reliable, would be preferable over using projected numbers.
                                                                                                          Page 35
                   Installment Agreement User Fees Were Not Properly
                             Calculated or Always Collected



•   Applied a 2.3 percent burden rate to the labor cost. The Chief Financial Officer’s office
    was unable to provide any documentation to support this specific rate but explained that
    this was the same burden rate used in the original FY 1994 cost estimate and was just
    carried forward without re-evaluation. Eliminating the unsupported burden rate from the
    calculation resulted in a reduction of the installment agreement initial user fee by $(0.74)
    and user fee for restructuring/reinstating by $(0.31). Considering the effect on the
    indirect overhead calculation this error resulted in a reduction of $(1.21) and $(0.51) to
    the initial and restructured/reinstated user fees, respectively.
•   Applied inflation rates for FY 2004, 2005 and 2006 to some cost categories but not
    others. The Chief Financial Officer’s office could not identify the actual source of all
    rates and the rates used could not be verified. In addition, the IRS’ application of
    inflation was incorrect. The inflation rates were applied against the same total without
    considering the cumulative effect of inflation when adjusting for multiple years.
    Because the IRS elected to adjust for multi-year inflation rather than taking the preferred
    approach of updating the calculation based on the most current data, we recalculated the
    cost estimate by applying the inflation rates where they were omitted and corrected the
    labor inflation rates used where we could using the appropriate application. This
    resulted in an increase in the installment agreement initial user fee by $1.22 [$0.66 +
    $0.56] and the user fee for restructuring/reinstating by $0.51 [$0.28 + $0.23].
    Considering the effect on the indirect overhead calculation, this error increased the initial
    and restructured/reinstated user fees by $1.99 and $0.83, respectively.
•   Rounded overhead rates for direct labor and employee benefits when applying those
    rates in the labor cost analysis. For better accuracy, the overhead rates should have been
    averaged. The overhead rounding errors resulted in increasing the installment agreement
    initial user fee estimate by $0.50 and user fee for restructuring/reinstating estimate
    by $0.21. Considering the effect on the indirect overhead calculation, this error
    increased the initial and restructured/reinstated user fees by $0.81 and $0.34,
    respectively.




                                                                                        Page 36
       Installment Agreement User Fees Were Not Properly
                 Calculated or Always Collected



                                                 Appendix VII

Management’s Response to the Draft Report




                                                           Page 37
Installment Agreement User Fees Were Not Properly
          Calculated or Always Collected




                                                    Page 38
Installment Agreement User Fees Were Not Properly
          Calculated or Always Collected




                                                    Page 39
Installment Agreement User Fees Were Not Properly
          Calculated or Always Collected




                                                    Page 40
Installment Agreement User Fees Were Not Properly
          Calculated or Always Collected




                                                    Page 41
Installment Agreement User Fees Were Not Properly
          Calculated or Always Collected




                                                    Page 42
